CARLO D ANGELO, PC 100 Last Ferguson, Sle 1210
Allomey al Law Tyler, Texas, 75702
905.595.6776 Tel

903.407.4119 Fax
carlo@dangelolegalcom
Dangelolegalcom

 
    
 
  

 

March 17, 21

Honorable Scott S. Harris

Clerk of the Court, Supreme Court of the United States
1 First Street NE

Washington, DC 20543

Re: — Kosoul Chanthakoummane v. Director of TDCJ
Case No. 20-6799
CAPITAL CASE
Petitioner’s motion for delay of distribution of the petition for writ of certiorari under
Rule 15.5 from March 25, 2021 to April 14, 2021

Honorable Scott S. Harris:

Please accept this letter on behalf of the Petitioner, Kosoul Chanthakoummane, requesting a
14-day extension of the grace period for distribution of this case under Rule 15.5.

Respondent, the State of Texas, filed its brief in opposition to Petitioner’s writ of certiorari on
March 10, 2021. Accordingly, the 14-day extension period for distribution of the case would
end March 25, 2021. Per the Court’s calendar, the first date for distribution would also fall on
March 25, 2021.

Petitioner respectfully moves that that the Court delay distribution of the matter by 14 days,
through April 7, 2021 thereby allowing Petitioner additional time to file a reply brief on or
before that date. Such an extension would allow for distribution of the matter in advance of the
Court’s scheduled conference date of April 14, 2021. Petitioner respectfully makes this request
for additional time due to the delays caused by the COVID-19 pandemic. The Respondent does
not oppose this request.

Sincerely,
/s/ Carlo D’Angelo

Carlo D’ Angelo
Counsel for Petitioner

eer Lisa Smith, Counsel of Record for Respondent

  
 
 

    

iylerCriminaiDelense kt ————————
